HHS/OIG, Audit - "Review of Hurricane Katrina Uncompensated Care Costs
Claimed by Mississippi for the University of Mississippi Medical Center,"
(A-04-07-06004)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Hurricane Katrina Uncompensated Care Costs Claimed by Mississippi for the
University of Mississippi Medical Center," (A-04-07-06004)
December 31, 2007
Complete
Text of Report is available in PDF format (678 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
In response to Hurricane Katrina, section 6201 of the
Deficit Reduction Act of 2005 authorized Federal funding for the total costs of
medically necessary uncompensated care furnished to evacuees and affected
individuals without other coverage in eligible States, i.e., States that
provided care to such individuals under section 1115 projects.  The University
of Mississippi Medical Center (the Medical Center) received $17.9 million in
uncompensated care reimbursement.
The State agency generally claimed reimbursement for services provided by the
Medical Center in accordance with the approved section 1115 demonstration and
uncompensated care pool plan.  Of the 200 sampled claims, 196 claims were
allowable.  The remaining four claims totaling $22,379 were improper because the
individuals who received the services had health care coverage under other
programs.
We recommended that the State agency (1) refund to the Centers for Medicare and
Medicaid Services (CMS) the $22,379 paid to the Medical Center for improper
uncompensated care claims and (2) consider reviewing the Medical Centers claims
that were not included in the sample to ensure that no other health care
coverage was available and make refunds to CMS if appropriate.  The State agency
did not fully agree with the recommendations but said that it would make the
proper adjustments in cooperation with CMS.